                                   NATIONAL SCIENCE FOUNDATION
                                          4201 Wilson Boulevard
                                        ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTORGENERAL




    MEMORANDUM

    DATE:
                   JUL 3 1 2009
    TO:         David A. Elizalde, Director


                                       )&hyp
                Division of Acquisition and Cooperative Support (DACS)

    THRU        Jannifer CJenkins
                Senior Audit Manag r

    FROM:       Shenye MccregOr&(
                Attorney-Advisor

    SUBJECT: NSF OIG Audit Report No. OIG-09-1-011, Audit Report on University of
             Wisconsin Ice Coring and Drilling Services Incurred Costs and Compliance
             with Contract Terms and Conditions

We contracted with the Defense Contract Audit Agency (DCAA), Tri-State Branch
Office to perform a review of approximately-              of costs claimed in FYs 2001-
2007' by University of Wisconsin-Madison's - Ice Coring and Drilling Services (ICDS)
on NSF Award No. OPP-0003289. ICDS provides technical support to the Office of
Polar Programs' drilling operations in the Antarctic and Arctic regions and in the design
and development of a new Disc Drilling system.

The objectives of the audit were to 1) determine the allowability of direct and indirect
costs claimed to NSF by ICDS for the contract; 2) identify cost overruns by program year
related to deep ice sheet coring drill and drilling services; 3) determine whether ICDS
properly notified NSF of the overmn; 4) determine whether ICDS properly complied with
Government Furnished Property reporting requirements; and 5) report any instances of
noncompliance with laws, regulations, provisions of the contract or significant
weaknesses in internal controls, which impact the ability of ICDS to comply with the
requirements in the contract and associated procurement regulations.



'ICDS' fiscal year and contract year begins on Ootober 1 and ends on September 30. The contract began
on June 1,2000.
                                                       NSF OIG Audit Report No. OIG09-1-011



     The audit was performed in accordance with Generally Accepted Government Auditing
     Standards. The results of the DCAA audit are summarized below. The DCAA audit
     report is attached, which includes a schedule of allowable costs for the contract and
     ICDS' response.


I    Overall Summary Results of Audit

     ICDS claimed u n d e r NSF Contract No. OPP-0003289, which is $788,255
     over the approved level of funding through FY 2007 for the contract (contract ceiling).
     The auditors questioned $2,475,308 in unallowable services, equipment, subcontract,
     labor, materials and supplies, and travel costs; noted several internal control weaknesses
     in ICDS' contract administration; and identified instances where ICDS did not fully
     comply with all the terms and conditions of the contract.

     For example, ICDS did not properly notify NSF when in March of 2006, it began to
     experience increased costs in Deep Ice Sheet Coring drill development and testing, and
     r e a c h e d of its contract ceiling. ICDS failed to properly account for Government
     Property, in that inventory reports were incomplete or not performed for years 2003,
     2005 and 2006, and ICDS failed to obtain NSF approval to subcontract.


    Detailed Results of Audit of Incurred Costs

    The auditors questioned $2,068,925,     1            of total costs claimed in services,
    subcontracts, equipment, and materials and supplies, due to the lack of NSF consent and
    approval to subcontract, as required by FAR 52.244. ICDS submitted multiple requests
    to NSF for consent and approval to subcontract, however, NSF only responded once in 3
    years to .those requests. ICDS subsequently discontinued requesting approval for
    subcontracts, and indicated that it chose to proceed without approval rather than
    defaulting on the contract. DCAA included copies of the University's unanswered
    requests in Appendix 5 in the Audit Report.

    Labor costs in the amount of $24,074 were questioned because the labor time reports
    were not signed by either the employee or a supervisor as required by OMB Circular A-
    21. ICDS officials stated that they were unable to show that the hours were approved
    because the employee worked in the Antarctic during the period. ICDS officials relied on
    NSF progress reports to show that the hours for the employee were confirmed by the
    program manager. However, the employee's hours in the progress reports did not match
    those ICDS claimed in its NSF billings. Confirmation of employees' hours is required so
    that costs distributed represent actual costs and a responsible person can verify that work
    was performed and that it benefited the NSF activities.

    Travel costs in the amount of $3,234 were questioned due to ICDS' inability to locate
    support for 3 of the 40 transactions selected for examination. ICDS was unable to
                                                      NSF OIG Audit Report No. OIG09-1-011


      provide documentation to support either the type of the travel expense incurred or
      compliance with the ICDS' Travel Regulations.

      Auditors also questioned indirect costs of $379,075 due to applying the claimed Facilities
     -and Administrative (F&A) rate o            f to the questioned costs shown above (less
      equipment costs and suhcontract costs in excess of $25,000).

     Detailed Results of Significant Weaknesses in Internal Controls

     DCAA noted several internal control weaknesses and failure of ICDS to follow
     contractual requirements to notify NSF of cost overruns, to avoid incuning cost in excess
     of the contract ceiling, to properly account for Government Property, and to obtain
     Contracting Officer approval and consent to suhcontract in accordance with the Federal
     Acquisition Regulation.

     Specifically, the overall costs claimed through FY 2007 are greater by-        than the
     FY 2007 ceiling costs of the contract because a subcomponent of the project for drilling
     development and testing activity through FY 2007 was overrun by                       In
     addition, ICDS did not properly notify NSF in March of 2006, when it began to
     experience increased costs in Deep Ice Sheet Coring drill development and testing, and
     reached f        its contract ceiling.

     In addition to not notifying NSF of the cost overrun, ICDS lacked approval for
    exceeding the contract ceiling. Therefore, NSF had no opportunity to manage the increase
    in costs of the drill or to mitigate the impact of the escalating costs of the drill
    development and testing. ICDS requested that NSF consider an equitable adjustment for
    the increased costs.

    OIG recommends that NSF consider ICDS' request for an equitable adjustment and make
    a determination of whether or not NSF will fund the increase in contract costs of
    o v e r the ceiling and modify the contract accordingly.

    The auditors recommended that ICDS include additional internal controls in its cost
    monitoring system to ensure adequate cost control monitoring, proper and timely
    notification, of possible cost overruns, and the requirement to obtain NSF Contracting
    Officer approval related to consent to subcontract.

    In addition, ICDS failed to properly account for Government Property, in that inventory
    reports were incomplete or not performed for years 2003, 2005 and 2006. Also of the
    reports provided, none included the GSA Federal Supply Class Number which is required
'   by the contract terms. Therefore, the auditor could not determine whether there were
    inventory items that had been addedldeleted in the missing years but found no indication
    that the property included in the latest inventory report was invalid. The auditor
    recommended that ICDS submit inventory reports on June 30 of every year, include
    proper GSA Federal Supply Class Number, and provide a summary of the inventory
    items that have been added or deleted since the previous report. The auditor also
                                                   NSF OIG Audit Report No. OIG-09-1-011

 recommended that an audit of the physical existence of inventory listed be performed to
 ensure the correctness and validity of the inventory system as a whole.

 As stated above, ICDS provided evidence of requests for approval and consent to
 subcontract in the early periods of the contract but instead provided NSF after-the-fact
 quarterly progress and financial reports containing information on costs for the services
 and equipment. NSF Contracting Officials advised OIG that submission of quarterly
 progress and financial reports did not constitute approval of the requests. The auditors
 recommended that ICDS establish a policy in which ICDS seeks the NSF approval and
 consent to subcontract and to work with NSF to establish a process of obtaining timely
 approvals. ICDS agreed with the recommendation.

With regard to the questioned $3;234 in unsupported direct travel costs discussed above,
ICDS responded that the records were likely disposed of per the University's record
retention policy. However, the auditors noted that the records were destroyed or
misplaced prior to the time the retention policy specified. The.auditors recommended
that ICDS develop a record control system which includes an itemized list of which
specific records or types of records, by date, have been destroyed and when. Although
the policies were generally adequate, ICDS agreed to notify its Accounting Services,
custodians of the records, to ensure that documentation relating to record deshction is
more readily available.

The University generally agreed with the findings, but stated that it relied on the quarterly
progress and financial reports to the NSF to meet the approval and consent to subcontract
requirements of the FAR.

We are providing a copy of this memorandum to the Director, Office of Polar Programs
(OPP) and the OPP Contracting Officer's Technical Representative. The responsibility
for audit resolution rests with DACS. Accordingly, we ask that no action be taken
concerning the report's findings without first consulting DACS at (703) 292-8242.

We consider the issues in this report to be significant. Accordingly, we request that your
office work with ICDS to develop a written Corrective Action Plan detailing specific
actions taken andlor planned to address each report recommendation. Milestone dates
should be provided for corrective actions not yet completed.

In accordance with OMB Circular A-50, please coordinate with our office during the 6-
month resolution period to develop a mutually agreeable resolution of the report findings.
Also, the report findings should not be closed until NSF verities that all the
recommendations have been adequately addressed and the proposed corrective actions
have been satisfactorily implemented.


OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards,
the Office of Inspector General:
       Reviewed DCAA's approach and planning of the audit;
       Monitored the progress of the audit at key points;
       Coordinated periodic meetings with DCAA and NSF officials as necessary to
       discuss audit progress, findings and recommendations;
       Reviewed the audit report prepared by DCAA to ensure compliance with
       Generally Accepted Government Auditing Standards and Office of Management
       and Budget Circulars; and
       Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor's report on ICDS and the conclusions
expressed in the report. The NSF OIG does not express any opinion on ICDS's incurred
cost submissions, the indirect rate applications, or the conclusions presented in DCAA's
audit report.

We thank you and your staff for the assistance extended to us during the audit. If you
have any questions about this report, please contact Sherrye McGregor at (703) 292-5003
or Jannifer Jenkins at (703) 292-4996.



Attachment 1: DCAA Audit Report No. 3541-2008W17900001, Audit Report on
           Contract No. OPP-0003289 Interim Incurred Costs and Compliance with
           Contract Terms and Conditions for the Period June 1,2000 -September 30,
           2007.


cc:   Karl Erb, Director, OPP
      Brian Stone, OPP
